Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 USE OF HEALTH RESOURCES
AND SERVICES ADMINISTRATION
  GRANT FUNDS BY ALABAMA
POISON CONTROL SYSTEM, INC.
     DURING THE PERIOD
SEPTEMBER 1, 2001, THROUGH
      AUGUST 31, 2006




                    Daniel R. Levinson
                     Inspector General

                     November 2008
                     A-04-06-01043
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                               EXECUTIVE SUMMARY

BACKGROUND

Alabama Poison Control System, Inc. (APCS) is a 501(c)(3) not-for-profit corporation
located in Tuscaloosa, Alabama. Initially incorporated in 1982, APCS was one of two
State-certified poison control centers providing education, prevention, and treatment
services to the citizens of Alabama.

During the period September 1, 2001, through August 31, 2006, Health Resources and
Services Administration (HRSA) awarded $635,432 in financial assistance to APCS
under grant number H-4-BMC-00073. The goal of the grant was to, among other things,
strengthen APCS’s poisoning prevention and treatment programs and expand APCS
services by adding and maintaining additional staff, upgrading equipment, reinstating and
initiating educational and outreach programs, and improving public and professional
access to those services.

Although an independent corporation, APCS maintained a close relationship with the
Alabama Firefighters’ Personnel Standards and Education Commission (Fire College), a
State agency that is an organizational component of Shelton State Community College
(Shelton State). APCS has occupied office space at the Fire College and, during the
period covered by the HRSA grant, APCS’s Managing Director also served as the
Director of the Poison Center Division of the Fire College. Most APCS staff members,
including the Managing Director, were State employees paid from State appropriations
and whose salary costs were charged to Fire College accounts.

In 2006, State and Federal agencies initiated criminal investigations focused on
allegations that the Fire College Foundation (Foundation), a separate organization
established and managed by a former Director of the Fire College, had been used as a
conduit to divert State and Federal funds for the personal benefit of certain individuals.

In August 2006, at HRSA’s request, we initiated an audit of grant funds awarded to
APCS. However, prior to issuance of our audit report, the Department of Justice
requested that we suspend our work pending completion of legal proceedings involving
certain Fire College officials. As requested, we suspended our audit until August 2008,
when all scheduled legal proceedings had been completed.

OBJECTIVE

Our objective was to determine whether the $535,413 recorded in APCS’s accounting
system as costs allocable to the grant were allowable, allocable, and reasonable in
accordance with terms of the grant and applicable laws, regulations, and policies.




                                              i
SUMMARY OF FINDINGS

Of the $535,413 recorded in APCS’s accounting system as allocable to the HRSA grant
during the period September 1, 2001, through August 31, 2006, $406,709 had been
expended for goods and services that appear consistent with grant goals and objectives.
The remaining $128,704 was not allowable, allocable, or reasonable in accordance with
terms of the grant or applicable laws and regulations.

The $128,704 had been transferred to the Foundation, ostensibly to reimburse the
Foundation for costs it had incurred on behalf of APCS. However, the Foundation had
not actually incurred any of those costs. APCS’s Managing Director had simply
transferred grant funds to the Foundation from time to time and recorded the transferred
amounts in the accounting records as if they represented salaries, wages, or other costs
supposedly incurred for grant activities.

These transfers of APCS funds to the Foundation were neither isolated incidents nor
limited to the HRSA grant. During the period covered by our audit, in fact, the Managing
Director transferred $470,000 of APCS funds to either the Foundation or to a Fire
College official who served on the Foundation’s board of directors. APCS provided no
documentation that these payments, of either grant funds or other monies, were necessary
to maintain or strengthen APCS’s operations or to provide any benefit to the citizens of
Alabama that APCS was supposed to serve.

In the OTHER MATTERS section, we discuss recent organizational changes and note
that APCS operations are now directed and controlled by Shelton State, that APCS has no
authority to obligate or expend funds from any source, and that Shelton State would
assume responsibility for any future grants related to APCS operations.

RECOMMENDATIONS

We recommend that APCS:

   1. revise its accounting records to show that the $128,704 transferred to the
      Foundation is no longer allocable to the HRSA grant;

   2. prepare and submit Financial Status Reports (FSR) accurately accounting for its
      use of grant funds during each budget period from September 1, 2001, through
      August 31, 2006; and

   3. advise HRSA formally that APCS will no longer have authority to obligate or
      expend funds from any source, will no longer request funds under grant number
      H-4-BMC-00073, and will not apply for any future grant support.




                                            ii
SHELTON STATE COMMENTS

Shelton State Community College now directs both fiscal and programmatic operations
of APCS. In its written comments on our draft report, Shelton State said that it is in the
process of engaging a Certified Public Accounting firm to prepare accurate FSRs.
Working with the Certified Public Accountants, Shelton State intends to revise the APCS
records to show funds not allocable to the HRSA grant and to determine how to handle
the non-allowed costs. However, rather than informing HRSA, as we recommended,
Shelton State has informed APCS directly that it no longer has authority to obligate or
expend funds and that any requests for future grant funds will come from Shelton State.
(See the Appendix.) The complete text of Shelton State’s comments is included as the
Appendix.




                                            iii
                                             TABLE OF CONTENTS

                                                                                                                              PAGE

INTRODUCTION                   .......................................................................................................1

          BACKGROUND ..................................................................................................1
              Grants for Poison Control Centers............................................................1
              Alabama Poison Control System, Inc .......................................................1
              Alabama Fire College and Personnel Standards Commission..................2

          Objective, Scope and Methodology......................................................................2
                 Objective ...................................................................................................2
                 Scope .......................................................................................................2
                 Methodology .............................................................................................3

FINDINGS AND RECOMMENDATIONS .................................................................4

          GRANT COSTS MUST BE ALLOWABLE, ALLOCABLE, AND
          REASONABLE ....................................................................................................4

          FUNDS TRANSFERRED TO THE FIRE COLLEGE FOUNDATION.............5

          TRANSFER OF GRANT FUNDS RECORDED AS COSTS .............................6

          COSTS NOT INCURRED ...................................................................................7

          RECOMMENDATIONS......................................................................................8

          SHELTON STATE COMMENTS .......................................................................9

OTHER MATTERS .......................................................................................................9

APPENDIX

          SHELTON STATE COMMENTS




                                                                 iv
                                    INTRODUCTION

BACKGROUND

Grants for Poison Control Centers

The Poison Control Center Enhancement and Awareness Act Amendments of 2003
(Public Law 108-194) authorized the Health Resources and Services Administration
(HRSA) to award project grants to State-certified poison control centers. HRSA’s grants
provide financial assistance to, among other things, strengthen existing poisoning
prevention and treatment programs, improve services and expand access to those
services, and develop collaborative approaches between centers.

Alabama Poison Control System, Inc.

Alabama Poison Control System, Inc. (APCS) is a 501(c)(3) not-for-profit corporation
located in Tuscaloosa, Alabama. Initially incorporated in 1982, APCS was one of two
State-certified poison control centers providing education, prevention, and treatment
services to the citizens of Alabama.

During the period September 1, 2001, through August 31, 2006, HRSA awarded
$635,432 in financial assistance to APCS under grant number H-4-BMC-00073. The
following table shows the amounts awarded to APCS for each grant budget period:

                             Budget Period                Amount

                     09/01/2001 – 08/31/2002              $109,000
                     09/01/2002 – 08/31/2003               116,857
                     09/01/2003 – 08/31/2004               129,387
                     09/01/2004 – 08/31/2005               140,094
                     09/01/2005 – 08/31/2006               140,094

                     Total                                $635,432

The goal of HRSA’s financial assistance, based on grant applications from APCS, was to
strengthen existing poisoning prevention and treatment programs and expand services
provided by APCS by adding and maintaining additional staff, upgrading equipment,
reinstating and initiating educational and outreach programs, and improving public and
professional access to those services.




                                             1
Alabama Fire College and Personnel Standards Commission

Although an independent corporation, APCS maintained a close relationship with the
Alabama Firefighters’ Personnel Standards and Education Commission (Fire College), a
State agency that is an organizational component of Shelton State Community College
(Shelton State). APCS occupied office space at the Fire College and, during the period
covered by the HRSA grant, APCS’s Managing Director also served as the Director of
the Poison Center Division of the Fire College. Most APCS staff members, including the
Managing Director, were State employees who were paid from State appropriations and
whose salary costs were charged to Fire College accounts.

In 2006, State and Federal agencies initiated criminal investigations of certain activities
related to the Fire College. These investigations focused primarily on allegations that the
Fire College Foundation (Foundation), a separate organization established and managed
by a former Director of the Fire College, had been used as a conduit to divert State and
Federal funds for the personal benefit of certain individuals.

In August 2006, at HRSA’s request we initiated an audit of grant funds awarded to
APCS. However, prior to issuance of our audit report, the Department of Justice
requested that we suspend our work pending completion of legal proceedings involving a
number of Fire College officials. As requested, we suspended our audit from April 2007
until August 2008.

APCS did not submit annual Financial Status Reports (FSR) to account for its Federal
funding during the grant period. However, as of August 31, 2008, APCS’s accounting
records indicated that the organization had incurred $535,413 of costs allocable to the
HRSA grant during the period September 1, 2001, through August 31, 2006. As shown
in both HRSA and APCS records, the organization actually withdrew only $367,979 of
Federal grant funds through the Payment Management System.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the $535,413 recorded in APCS’s accounting
system as costs allocable to the grant were allowable, allocable, and reasonable in
accordance with terms of the grant and applicable laws, regulations, and policies.

Scope

Because APCS had not submitted annual FSRs to account for grant revenues and
expenses, we based our audit on the $535,413 recorded in APCS’s accounting system as
allocable to the HRSA grant during the period September 1, 2001, through August 31,
2006.




                                             2
We used OMB Circular A-122 “Cost Principles for Non Profit Organizations,” codified
at 2 CFR part 230 as criteria to determine the allowability of costs recorded in APCS’s
accounting system as allocable to the HRSA grant. We used OMB Circular A-110
“Uniform Administrative Requirements for Grants and Agreements with Institutions of
Higher Learning, Hospitals, and Other Non-Profit Organizations,” codified at 2 CFR part
215 as criteria to evaluate the adequacy of APCS’s financial management systems and
related internal controls.

Methodology

We performed most of our audit fieldwork from August 2006 through April 2007 at
APCS’s offices in Tuscaloosa, Alabama. To accomplish our audit objective, we:

   •   met with APCS and Fire College management officials to gain a proper
       understanding of APCS’s organizational structure, program operations, financial
       management systems and related internal controls, and the relationship between
       APCS, the Fire College, and the Foundation;

   •   reviewed APCS’s grant applications and HRSA’s award documents for each year
       of the audit period;

   •   analyzed APCS’s accounting records, reports, and other documents related to
       revenues and expenses both from the HRSA grant and from other sources during
       the audit period; and

   •   examined supporting documentation for the recorded revenues and expenses
       including invoices, receipts, bank statements, and cancelled checks.

We met with APCS’s Managing Director and Shelton State representatives in August
2008 to verify the tentative findings and conclusions resulting from our earlier work and
ensure a proper understanding of APCS’s current organizational structure and program
operations. We present current information from the APCS Managing Director in the
OTHER MATTERS section of our report.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.




                                            3
                      FINDINGS AND RECOMMENDATIONS

Of the $535,413 recorded in APCS’s accounting system as allocable to the HRSA grant
during the period September 1, 2001, through August 31, 2006, $406,709 had been
expended for goods and services that appear consistent with grant goals and objectives.
The remaining $128,704 was not allowable, allocable, or reasonable in accordance with
terms of the grant or applicable laws and regulations.

The $128,704 had been transferred to the Foundation, ostensibly to reimburse the
Foundation for costs it had incurred on behalf of APCS. However, the Foundation had
not actually incurred any of these costs. APCS’s Managing Director had simply
transferred grant funds to the Foundation from time to time and recorded the transferred
amounts in the accounting records as if they represented salaries, wages, or other costs
supposedly incurred for grant activities.

These transfers of APCS funds to the Foundation were neither isolated incidents nor
limited to the HRSA grant. During the period covered by our audit, in fact, the Managing
Director transferred $470,000 of APCS funds to either the Foundation or to a Fire
College official who served on the Foundation’s board of directors. APCS provided no
documentation that these payments, of either grant funds or other monies, were necessary
to maintain or strengthen APCS’s operations or to provide any benefit to the citizens of
Alabama that APCS was supposed to serve.

GRANT COSTS MUST BE ALLOWABLE, ALLOCABLE, AND REASONABLE

OMB Circular A-122 § 4.a defines a non-profit organization as one which:

        (1) is “operated primarily for scientific, educational, service, charitable, or
            similar purposes in the public interest;

        (2) is not organized primarily for profit; and

        (3) uses its net proceeds to maintain, improve, and/or expand its operations.

Attachment A to OMB Circular A-122 sets forth a number of basic considerations for the
allowability of costs under Federal grants, contracts, and other agreements with non-
profit organizations. Among these basic considerations is a requirement that allowable
costs, either direct or indirect, be both reasonable and allocable, as defined below:




                                             4
       . . . 3. Reasonable costs. A cost is reasonable if, in its nature or amount, it does
       not exceed that which would be incurred by a prudent person under the
       circumstances prevailing at the time the decision was made to incur the costs . . . .

       In determining the reasonableness of a given cost, consideration shall be
       given to:

           a. Whether the cost is of a type generally recognized as ordinary and
              necessary for the operation of the organization or the performance
              of the award.

           b. The restraints or requirements imposed by such factors as
              generally accepted sound business practices, arms length
              bargaining, Federal and State laws and regulations, and terms and
              conditions of the award.

           c. Whether the individuals concerned acted with prudence in the
              circumstances, considering their responsibilities to the
              organization, its members, employees, and clients, the public at
              large, and the Federal Government.

       4. Allocable costs. a. A cost is allocable to a Federal award . . . if it:

           (1) Is incurred specifically for the award,

           (2) Benefits both the award and other work and can be distributed in
               reasonable proportion to the benefits received, or

           (3) Is necessary for the overall operation of the organization . . . .

FUNDS TRANSFERRED TO THE FIRE COLLEGE FOUNDATION

During the period September 1, 2001, through August 31, 2006, APCS’s Managing
Director transferred a total of $410,000 from APCS to the Foundation and paid an
additional $60,000 in “consulting fees” to a Fire College official who served on the
Foundation’s board of directors. As shown in the following table, the $470,000 reflected
13 separate transactions, of which 4 transactions included $128,704 recorded in APCS’s
accounting records as allocable to the HRSA grant.




                                              5
    Transfer             Check
     Date               Number                 Total                  HRSA              Other

10/16/2001**              1191               $20,000                   -0-             $20,000
02/01/2002                1206                40,000                   -0-              40,000
02/25/2002                1224                30,000                   -0-              30,000
03/26/2002                1241                30,000                   -0-              30,000
07/09/2002                1288                35,000                $ 26,850             8,150
11/02/2002                1370                35,000                   -0-              35,000
01/06/2003**              1390                20,000                   -0-              20,000
01/29/2003                1408                30,000                   -0-              30,000
04/14/2003                1457                30,000                  13,086            16,914
11/12/2003                1592                30,000                   -0-              30,000
01/06/2004**              1625                20,000                   -0-              20,000
05/12/2004                1698                90,000                  28,768            61,232
10/06/2004                1782                60,000                  60,000                 0

                                           $470,000                $128,704           $341,296

**“Consulting fees” paid to a Fire College official who served on the Foundation’s board
of directors.

The $128,704 of HRSA grant funds transferred to the Foundation represented almost 35
percent of the Federal funds actually drawn down from the Payment Management System
($128,704 ÷ $367,979), while the $341,296 of transfers and consulting fees from other
funding sources represented almost 49 percent of those other revenues recorded in the
accounting records ($341,296 ÷ $698,386). In total, more than 44 percent of APCS’s
recorded revenues 1 ($470,000 of $1,066,365) were either transferred to the Foundation or
paid out as consulting fees to a Fire College official who served on the Foundation’s
board of directors.

TRANSFERS OF GRANT FUNDS RECORDED AS COSTS

Transfers to the Foundation of revenues from sources other than the HRSA grant were
included in APCS’s accounting records under the category “Alabama Fire College
Foundation.” Transfers of HRSA’s grant funds, however, were recorded in a manner to
give the appearance that APCS was reimbursing the Foundation for costs it had incurred
on behalf of APCS.




1
 APCS’s recorded revenues included drawdowns from the Payment Management System, donations and
charitable contributions, interest income from investments, and other miscellaneous income but did not
include annual State appropriations used to pay salaries and wages for APCS staff and other operating
costs.


                                                   6
On April 14, 2003, for example, APCS transferred $30,000 to the Foundation, including
$13,086 of HRSA grant funds and $16,914 from other sources. The $16,914 was
recorded under the cost category “Alabama Fire College Foundation,” but the $13,086
shown as applicable to the HRSA grant was recorded as incurred for:

       •    Computer Repairs                             $ 874
       •    Public Relations                             $1,000
       •    RN SPI 2                                     $7,754
       •    Toxicology Technicians                       $3,458

Similarly, APCS transferred $90,000 to the Foundation on May 12, 2004, including
$28,768 of grant funds and $61,232 from other sources. The $61,232 was shown in the
accounting records under the cost category “Alabama Fire College Foundation,” but the
$28,768 was recorded as applicable to:

       •    RN SPI                                       $18,692
       •    Toxicology Technicians                       $10,076

COSTS NOT INCURRED

There were no formal bills or invoices to describe the nature of the goods or services
supposedly provided by the Foundation or to support the Managing Director’s decisions
as to what “costs” were involved in the transfers. Similarly, there were no documents to
support the amount of the involved charges or to demonstrate that the payments were
justified by any benefit to grant-funded operations.

Instead, APCS’s Managing Director told us that he periodically received instructions
from the Director of the Fire College to make payments to the Foundation in various
amounts. Based solely on these conversations, without any evidence that the amounts
were appropriate or justified, the Managing Director would then transfer APCS funds to
the Foundation and, for transfers that involved HRSA grant funds, record the transferred
amounts in APCS’s accounting records as if they represented salaries, wages, or other
costs supposedly incurred for grant activities.

In fact, the Foundation had not actually incurred any of the costs supposedly being
reimbursed by APCS. Almost all APCS staff, including the registered nurse and the
toxicology technicians cited in the above examples, were State employees and received
their salaries and wages through State appropriations. Similarly, the State directly paid
the costs of APCS’s public relations activities and computer repairs with no participation
by the Foundation. The funds transferred to the Foundation from APCS were used only
for the personal benefit of certain Fire College officials.




2
    Registered Nurse, Specialist in Poison Information


                                                         7
At the same time that APCS’s Managing Director was authorizing these unsupported and
unjustified transfers of organizational funds to the Foundation, he was applying for
HRSA funding based on a shortage of funding from State appropriations. In applying for
grant funding for the period September 1, 2001, through August 31, 2002, for example,
the Managing Director’s grant application stated: “Funding has not increased in
proportion to service requirements. This has resulted in limits on staffing, efficiency of
operation, and outreach to consumers and health care professionals.”

HRSA awarded APCS $109,000 to maintain and improve its services during the period
September 1, 2001, through August 31, 2002. However, following the grant award,
APCS transferred $135,000 to the Foundation and paid an additional $20,000 in
consulting fees to a Fire College official who served on the Foundation’s board of
directors.

Similarly, in applying for HRSA funding for the period September 1, 2002, through
August 31, 2003, APCS’s grant application stated: “. . . proration of the [S]tate budget
has reduced available funds by $35,000. While services and outreach have been
improved, state budget proration has forced reassessment of original goals.”

HRSA awarded APCS $116,857 to expand and improve its services during the period
September 1, 2002, through August 31, 2003. During this period, however, APCS
transferred another $95,000 to the Foundation and paid another $20,000 in consulting
fees to the Fire College official who served on the Foundation’s board of directors.

During the period September 1, 2001, through August 31, 2006, APCS withdrew
$367,979 of grant funds from the Payment Management System with a stated goal of
expanding and improving its services to the citizens of Alabama. During that same
period, however, APCS made unsupported and unjustified transfers of $410,000 to the
Foundation and paid another $60,000 for consulting fees to a Foundation Director.

These audit findings reflect a basic lack of effective program management at APCS, as
well as a fundamental disregard for both APCS’s mission and the goals and objectives
established for HRSA’s support of that mission.

RECOMMENDATIONS

We recommend that APCS:

   1. revise its accounting records to show that the $128,704 transferred to the
      Foundation is no longer allocable to the HRSA grant;

   2. prepare and submit FSRs accurately accounting for its use of grant funds during
      each budget period from September 1, 2001, through August 31, 2006; and




                                            8
     3. advise HRSA formally that APCS will no longer have authority to obligate or
        expend funds from any source, will no longer request funds under grant number
        H-4-BMC-00073, and will not apply for any future grant support.

SHELTON STATE COMMENTS

Shelton State Community College now directs both fiscal and programmatic operations
of APCS. In its written comments on our draft report, Shelton State said that it is in the
process of engaging a Certified Public Accounting firm to prepare accurate FSRs.
Working with the Certified Public Accountants, Shelton State intends to revise the APCS
records to show funds not allocable to the HRSA grant and to determine how to handle
the non-allowed costs. However, rather than informing HRSA, as we recommended,
Shelton State has informed APCS directly that it no longer has authority to obligate or
expend funds and that any requests for future grant funds will come from Shelton State.
(See the Appendix.) The complete text of Shelton State’s comments is included as the
Appendix.

                                   OTHER MATTERS

As stated earlier, we met with the APCS Managing Director and representatives of
Shelton State in August 2008 to verify the tentative findings and conclusions resulting
from our earlier work and to ensure a proper understanding of APCS’s current
organizational structure and program operations. During these meetings, Shelton State
representatives told us the following:

1.      At this time, both fiscal and programmatic operations of the poison control center
        are directed by Shelton State. All current staff members are Shelton State
        employees paid through a State appropriation earmarked to cover poison control
        center salaries and other operating expenses.

2.      APCS still exists as a corporate entity but serves only to provide an advisory
        panel for Shelton State and as a conduit for private donations that Shelton State
        then controls. APCS is transferring its corporate assets to the control of Shelton
        State, and APCS’s Managing Director has no authority to obligate or expend
        funds from any source.

3.      Instead of APCS, Shelton State will directly control and supervise any further
        grants for poison control center operations. Accordingly, Shelton State will
        assume responsibility for ensuring that any operations funded by Federal grants
        comply with all applicable laws, regulations, and grant terms.




                                             9
APPENDIX
APPENDIX
 Page 1 of 2
APPENDIX
 Page 2 of 2
